Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   CALCULATION OF VOLUME
   WEIGHTED AVERAGE SALES 

  PRICE FOR MEDICARE PART B 

     PRESCRIPTION DRUGS





                    Daniel R. Levinson

                    Inspector General 


                      February 2006

                     OEI-03-05-00310

                    Office of Inspector General
                                     http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations in order to reduce waste, abuse, and mismanagement and to promote economy
and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program evaluations
(called inspections) that focus on issues of concern to HHS, Congress, and the public. The
findings and recommendations contained in the inspections generate rapid, accurate, and up-to
date information on the efficiency, vulnerability, and effectiveness of departmental programs.
OEI also oversees State Medicaid Fraud Control Units which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG’s internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
I N T R O D        U C T              I O N
Δ    E X E C U T I V E                                        S U M M A R Y                                      



                    OBJECTIVE
                    To review the Centers for Medicare & Medicaid Services’ (CMS)
                    methodology for calculating volume-weighted average sales price (ASP)
                    for Medicare Part B prescription drugs.


                    BACKGROUND
                    In January 2005, Medicare began paying for most Part B drugs using an
                    entirely new pricing methodology based on ASPs. Manufacturers report
                    ASPs by national drug codes (NDC), which are 11-digit identifiers that
                    indicate the manufacturer, the product dosage form, and the package
                    size of a drug. Manufacturers must provide CMS with the ASP and
                    sales volume for each of their NDCs on a quarterly basis.

                    Although manufacturers submit ASP data by NDCs, CMS does not
                    reimburse Medicare providers for drugs using NDCs. Instead, CMS
                    uses procedure codes. CMS established the Healthcare Common
                    Procedure Coding System (HCPCS) to provide a standardized coding
                    system for describing the specific items and services provided in the
                    delivery of health care. Given that Medicare reimbursement for Part B
                    drugs is based on HCPCS codes rather than NDCs, and that more than
                    one NDC may meet the definition of a particular HCPCS code, CMS has
                    developed a file that “crosswalks” manufacturers’ NDCs to HCPCS
                    codes. The NDC-level information in this crosswalk can then be used to
                    calculate an ASP for each covered HCPCS code.

                    When CMS calculates payment amounts for HCPCS codes, it must
                    weight ASPs at the NDC level by the amount of the drug sold during the
                    quarter. Pursuant to section 1847A(b)(1) of the Social Security Act (the
                    Act), the Medicare allowance for most Part B drug codes is then equal to
                    106 percent of the volume-weighted ASPs for those HCPCS codes.
                    Section 1847A(b)(3) of the Act specifies the way to calculate a volume-
                    weighted ASP based on information reported by manufacturers, and
                    this calculation assumes that the unit of ASP submission is the lowest
                    identifiable quantity of the drug (e.g., 1 milliliter, 1 tablet). However,
                    the Act also granted the Secretary of the Department of Health and
                    Human Services (Secretary) discretion to establish a different unit for
                    reporting ASPs.1 Acting on behalf of the Secretary, CMS opted to
                    exercise this discretion and changed the unit of ASP submission to the


                    1Social Security Act § 1847A(b)(2)(B).


 OEI-03-05-00310    C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                     i
E X E C U T I V E                         S U            M M A R Y


                   amount of the drug represented by the NDC.2 The amount of the drug
                   represented by one NDC may differ from the amount of the drug
                   represented by another NDC. It may also differ from the amount of the
                   drug specified by the HCPCS code. Therefore, collecting ASPs and sales
                   volume by NDC means that there is no longer a standard unit across
                   NDCs to use in calculating a volume-weighted ASP for the HCPCS code.
                   To standardize the amount of the drug contained in each of the NDCs
                   associated with a given HCPCS code, CMS introduced billing units into
                   the calculation of volume-weighted ASPs. The number of billing units
                   in an NDC describes the number of HCPCS code units in that NDC.

                   For this study, we obtained volume-weighted ASPs for the first quarter
                   of 2005, which CMS calculated based on data submitted by
                   manufacturers for the third quarter of 2004. We reviewed CMS’s
                   calculations of volume-weighted ASPs for 459 HCPCS codes. We also
                   developed an alternate method for calculating volume-weighted ASP
                   and used this alternate method to calculate volume-weighted ASPs and
                   reimbursement amounts for each of the 459 HCPCS codes. We then
                   compared reimbursement amounts calculated using the alternate
                   method to those calculated by CMS and identified codes for which the
                   reimbursements differed. We also estimated the monetary impact of
                   using the Office of Inspector General (OIG) reimbursement methodology
                   rather than the CMS reimbursement methodology.


                   FINDINGS
                   The method CMS uses to calculate volume-weighted average
                   sales price is incorrect. We believe that the method CMS uses to
                   calculate a volume-weighted ASP for a HCPCS code is mathematically
                   incorrect because CMS does not use billing units consistently
                   throughout its equation. Although CMS uses billing units to
                   standardize ASPs across NDCs for each HCPCS code, it does not
                   similarly standardize sales volume across NDCs. As a result, CMS’s
                   equation may not always yield a volume-weighted ASP that is
                   consistent with the volume-weighted ASP derived from the calculation
                   set forth in the law. Recognizing this inconsistency, OIG developed an
                   alternate method for calculating the volume-weighted ASP, which
                   produces a volume-weighted ASP that is both mathematically correct
                   and consistent with the results of the calculation set forth in the ASP
                   legislation. To illustrate this point, we calculated the volume-weighted


                   242 C.F.R. § 414.802 (2004).

 OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                ii
E X E C U T I V E                         S U            M M A R Y


                   ASP for a HCPCS code using the calculation derived from section
                   1847A(b)(3) of the Act, CMS’s calculation, and OIG’s alternate
                   calculation. The calculation derived from the statute and OIG’s
                   alternate calculation both yielded the same volume-weighted ASP for
                   the HCPCS code, whereas CMS’s calculation yielded a different volume-
                   weighted ASP.
                   Because CMS calculates volume-weighted ASPs incorrectly, current
                   and future reimbursement amounts may not be accurate. According
                   to our analysis of prices published in the first quarter of 2005,
                   46 percent of HCPCS codes had a reimbursement amount that was
                   higher than it should have been, resulting in an estimated $115 million
                   loss to Medicare in 2005. For 13 percent of HCPCS codes, CMS’s
                   reimbursement amount was lower than it should have been,
                   representing an estimated $5 million loss to providers in 2005. For the
                   remaining 41 percent of HCPCS codes, there was no difference between
                   the reimbursement amount calculated by CMS and the reimbursement
                   amount calculated by OIG. In addition, CMS’s incorrect calculation
                   affects adjustments to drug reimbursement amounts based on OIG
                   pricing comparisons mandated by the Medicare Prescription Drug,
                   Improvement, and Modernization Act of 2003 (MMA).


                   RECOMMENDATION
                   Volume-weighted ASPs form the basis on which providers are
                   reimbursed for most Part B drugs. Therefore, any inaccuracies in these
                   amounts have significant implications for the Medicare program, its
                   health care providers, and its beneficiaries. We believe that CMS’s
                   method for calculating volume-weighted ASPs is incorrect, and that the
                   incorrect calculation can produce improper reimbursement amounts.
                   Although we identified many HCPCS codes for which reimbursement
                   was too high in the first quarter of 2005, we also found a number of
                   HCPCS codes for which reimbursement was too low. Moreover, the
                   ratio between codes with reimbursements that are too high and those
                   with reimbursements that are too low may periodically fluctuate given
                   that ASP data change from quarter to quarter.

                   Furthermore, CMS’s incorrect calculation has implications for future
                   adjustments to reimbursement amounts based on OIG pricing
                   comparisons mandated by the MMA. It is therefore critical that the
                   calculation of volume-weighted ASPs be performed correctly for all
                   HCPCS codes.


 OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                iii
E X E C U T I V E                         S U            M M A R Y


                   CMS should change its method for calculating volume-weighted ASPs.
                   We propose that CMS adopt an alternate equation, which uses billing
                   units consistently and produces a volume-weighted ASP that is both
                   mathematically correct and consistent with the results of the calculation
                   set forth in section 1847A(b)(3) of the Act.


                   AGENCY COMMENTS
                   CMS indicated that it will consider the report’s findings in its ongoing
                   efforts to enhance implementation of the new ASP payment
                   methodology. CMS also stated that it presented the current ASP
                   calculation in proposed rule 70 Fed. Reg. 45764, 45844 (August 8, 2005)
                   and received public comments on its approach. As CMS gains more
                   experience with the ASP data, and as more information becomes
                   available, CMS stated that it may consider altering the ASP
                   methodology.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   We continue to believe that CMS is calculating volume-weighted ASP
                   incorrectly, and that this incorrect calculation results in reimbursement
                   amounts that are inaccurate and inconsistent with the ASP payment
                   methodology set forth in section 1847A(b)(3) of the Act. According to
                   our analysis of prices from the first quarter of 2005, the net effect of
                   inaccurate payments was a loss for the Medicare Trust Fund.

                   OIG’s concerns about the ASP calculation were echoed in the comments
                   CMS received on proposed rule 70 Fed. Reg. 45764, 45844 (August 8,
                   2005). In response to the proposed rule, several manufacturers or their
                   representatives noted that products are available in different package
                   sizes and that a billing code may encompass multiple NDCs; therefore,
                   weighting the ASP payment amount by NDCs sold does not reflect the
                   true weighted average price per billing unit. These commenters
                   suggested that CMS revise its calculation so that the payment limit is
                   based on the weighted ASP of the number of billing units sold rather
                   than the number of NDCs sold. Commenters on the proposed rule
                   recognized that such a change could result in an increase or decrease to
                   the reimbursement amount, but recommended that the calculation be
                   altered nonetheless.

                   We look forward to receiving CMS’s comments on this final report.




 OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                iv
Δ   T A B L E           O F             C O N T E N T S                                  




         EXECUTIVE SUMMARY                                 .......................................                                i



         INTRODUCTION ................................................ 1




         FINDINGS ....................................................... 6

                    CMS’s calculation of volume-weighted ASPs is incorrect . . . . . . . . 6 


                    Reimbursement amounts may not be accurate . . . . . . . . . . . . . . . . 8 




         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                    Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 


                    Office of Inspector General Response. . . . . . . . . . . . . . . . . . . . . . . 11 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                    A: 	Equations Used to Calculate Volume-Weighted ASP . . . . . . . 13 


                    B: 	Codes for Which CMS’s Reimbursement Amount Exceeded 

                        OIG’s Reimbursement Amount . . . . . . . . . . . . . . . . . . . . . . . . 14 


                    C: 	Codes for Which CMS’s Reimbursement Amount Was Less 

                        Than OIG’s Reimbursement Amount. . . . . . . . . . . . . . . . . . . . 19 


                    D: 	Codes for Which CMS’s Reimbursement Amount and OIG’s 

                        Reimbursement Amount Were the Same. . . . . . . . . . . . . . . . . 21 


                    E: Centers for Medicare & Medicaid Services’ Comments . . . . . . 26 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

Δ   I N T R O D U C T I O N                                                       



                  OBJECTIVE
                  To review the Centers for Medicare & Medicaid Services’ (CMS)
                  methodology for calculating volume-weighted average sales price (ASP)
                  for Medicare Part B prescription drugs.


                  BACKGROUND
                  Medicare Coverage of Prescription Drugs
                  Medicare Part B currently covers a limited number of outpatient
                  prescription drugs. Those that are covered include injectable drugs
                  administered by a physician; certain self-administered drugs, such as
                  oral anticancer drugs and immunosuppressive drugs; drugs used in
                  conjunction with durable medical equipment; and some vaccines. With
                  the advent of the Part D benefit in 2006, Medicare will offer
                  beneficiaries additional insurance coverage for certain outpatient
                  prescription drugs that are not covered under Part B.
                  Use of Average Sales Price in the Medicare Program
                  In January 2005, Medicare began paying for most Part B drugs using an
                  entirely new pricing methodology based on ASPs.1 Section 1847A(c) of
                  the Social Security Act (the Act), as added by the Medicare Prescription
                  Drug, Improvement, and Modernization Act of 2003 (MMA), P.L. 108
                  173, defines an ASP as a manufacturer’s sales of a drug to all
                  purchasers in the United States in a calendar quarter divided by the
                  total number of units of the drug sold by the manufacturer in that same
                  quarter. The ASP is net of any price concessions such as volume
                  discounts, prompt pay discounts, and cash discounts; free goods
                  contingent on purchase requirements; chargebacks; and rebates other
                  than those obtained through the Medicaid drug rebate program. Sales
                  that are nominal in amount are exempted from the ASP calculation, as
                  are sales excluded from the determination of “best price” in the
                  Medicaid drug rebate program.2


                  1Prior to 2005, the pricing methodology for most Part B drugs was based on the average

                   wholesale price (AWP). For 2004, the reimbursement amount for most covered drugs was
                   based on 85 percent of the AWP as published in national pricing compendia such as the
                   “Red Book.” Prior to 2004, Medicare Part B reimbursed for covered drugs based on the
                   lower of either the billed amount or 95 percent of AWP.
                  2Pursuant to section 1927 (c)(1)(C)(i) of the Act, “best price” is the lowest price available

                   from the manufacturer during the rebate period to any wholesaler, retailer, provider,
                   health maintenance organization, nonprofit entity, or governmental entity within the
                   United States, with certain exceptions.

OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                  1
I N T R O D        U C T              I O N


                    Manufacturers’ Reporting of Average Sales Price Data
                    Pursuant to section 1927(b)(3)(A)(iii) of the Act, manufacturers report
                    ASPs by national drug codes (NDC), which are 11-digit identifiers that
                    indicate the manufacturer, the product dosage form, and the package
                    size of a drug. Manufacturers must provide CMS with the ASP and
                    volume of sales for each NDC on a quarterly basis, with submissions
                    due 30 days after the close of the quarter.

                    Section 1847A(b)(2)(B) of the Act defines the unit of ASP submission as
                    the lowest identifiable quantity (such as a capsule or tablet, milligram
                    of molecules, or grams) of the drug or biological. Accordingly,
                    manufacturers would submit, with respect to each NDC, the ASP and
                    volume of sales for the smallest amount of the drug contained in the
                    NDC—e.g., manufacturers would submit an ASP for 1 milliliter and the
                    number of 1-milliliter units sold. However, section 1847A(b)(2)(B) of the
                    Act also grants the Secretary of the Department of Health and Human
                    Services (Secretary) discretion to establish a different unit for reporting
                    ASPs for years after 2004. Acting on behalf of the Secretary, CMS opted
                    to exercise this discretion and changed the unit of ASP submission from
                    the lowest identifiable quantity of the drug (e.g., 1 milliliter, 1 tablet) to
                    the amount of the drug represented by the NDC (e.g., 50 milliliters,
                    100 tablets).3 Therefore, manufacturers currently report an ASP for the
                    amount of the drug in the NDC rather than for the smallest identifiable
                    quantity of the drug.
                    Use of Healthcare Common Procedure Coding System Codes
                    Although manufacturers submit ASP data by NDCs, CMS does not
                    reimburse Medicare providers for drugs using NDCs. Instead, CMS
                    uses procedure codes. CMS established the Healthcare Common
                    Procedure Coding System (HCPCS) to provide a standardized coding
                    system for describing the specific items and services provided in the
                    delivery of health care. Each HCPCS code for drugs defines the drug
                    name and dosage size but does not specify manufacturer information or
                    package size data.

                    Given that Medicare reimbursement for Part B drugs is based on
                    HCPCS codes rather than NDCs, and that more than one NDC may
                    meet the definition of a particular HCPCS code, CMS has developed a
                    file that “crosswalks” manufacturers’ NDCs to HCPCS codes. The NDC-
                    level information in this crosswalk can then be used to calculate an ASP
                    for each covered HCPCS code. Under the ASP pricing methodology, the

                    342 C.F.R. § 414.802 (2004).


 OEI-03-05-00310    C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                 2
I N T R O D        U C T              I O N


                    Medicare allowance for most Part B drugs is equal to 106 percent of the
                    ASP for the HCPCS code. Medicare beneficiaries are responsible for
                    20 percent of this amount in the form of coinsurance.
                    Calculation of Volume-Weighted ASP
                    Calculation of a Volume-Weighted ASP Based on the Methodology Set Forth in
                    the Law. As mentioned above, manufacturers submit ASPs by NDCs,
                    and more than one NDC may meet the definition of a HCPCS code.
                    These multiple NDCs are then used to calculate an ASP for the HCPCS
                    code. However, each NDC does not contribute equally toward the
                    payment amount for a HCPCS code. Consistent with section
                    1847A(b)(3) of the Act, when payment amounts for HCPCS codes are
                    calculated, ASPs at the NDC level must be weighted by the amount of
                    the drug sold during the quarter. This means that the ASP for a drug
                    with a high volume of sales will have greater influence on the
                    reimbursement amount for a HCPCS code than an ASP for a drug with
                    a low volume of sales. Section 1847A(b)(3) of the Act describes the
                    following equation for calculating volume-weighted ASP:

                   Volume-Weighted ASP                                       Sum of (ASP for One Unit * Number of Units Sold )
                        for One Unit                                 =
                                                                                                 Sum of Number of Units Sold

                    This equation assumes that the unit of ASP submission, as defined in
                    section 1847A(b)(2)(B) of the Act, is the lowest identifiable amount of
                    the drug. Therefore, the equation yields a volume-weighted ASP for the
                    lowest identifiable amount of the drug—e.g., a volume-weighted ASP for
                    1 milliliter or 1 tablet. This amount can then be multiplied by the
                    amount of the drug specified by the HCPCS code, which results in the
                    volume-weighted ASP for the HCPCS code.4 For example, if a HCPCS
                    code represents 5 milliliters of a drug, and the volume-weighted ASP for
                    1 milliliter of the drug as determined by the calculation in the law is $2,
                    then the volume-weighted ASP for the HCPCS code would be 5 times
                    $2, or $10.
                    Calculation of a Volume-Weighted ASP According to CMS. The calculation
                    specified in the statute uses the lowest identifiable amount of the drug
                    as the standard unit of the drug across NDCs. However, because CMS
                    exercised its discretion and changed the unit of ASP submission from


                    4The statute does not specifically address converting the volume-weighted ASP for the
                       lowest identifiable amount of the drug to a reimbursement amount for the HCPCS code.
                       However, the conversion can be achieved by multiplying the volume-weighted ASP for one
                       unit by the amount of the drug specified by the HCPCS code.

 OEI-03-05-00310    C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                                 3
I N T R O D        U C T              I O N


                    the lowest identifiable amount of the drug to the entire amount of the
                    drug represented by the NDC, the calculation described in the law could
                    not be applied exactly as written. 5 The entire amount of the drug
                    contained in an NDC may differ from one NDC to the next. It may also
                    differ from the amount of the drug specified by the HCPCS code.
                    Therefore, collecting ASPs and sales volume by NDCs means that there
                    is no longer a standard unit across NDCs to use in calculating a volume-
                    weighted ASP for the HCPCS code. It was therefore necessary for CMS
                    to modify the method for calculating a volume-weighted ASP described
                    in the law.

                    To standardize the amount of the drug contained in each of the NDCs
                    associated with a given HCPCS code, CMS introduced billing units into
                    the calculation of a volume-weighted ASP. The number of billing units
                    in an NDC, which CMS calculates as part of its crosswalk files,
                    describes the number of HCPCS code units that are in that NDC. For
                    instance, an NDC may contain a total of 10 milliliters of Drug A, but the
                    corresponding HCPCS code may be defined as only 5 milliliters of Drug
                    A. In this case, there are two billing units in the NDC. The equation
                    that CMS uses to calculate a volume-weighted ASP is as follows:
                                                                                                    ASP for NDC       * Number of NDCs Sold
                   Volume-Weighted ASP                                  Sum of
                                                                                               Billing Units in NDC
                    for the Billing Unit of
                        HCPCS Code          =
                                                                                                      Sum of Number of NDCs Sold


                    METHODOLOGY
                    We obtained CMS’s volume-weighted ASPs for the first quarter of 2005,
                    which were calculated based on NDC-level data submitted by
                    manufacturers for the third quarter of 2004. In addition, we obtained
                    the file that CMS used to crosswalk NDCs to their corresponding
                    HCPCS codes. Both the volume-weighted ASPs and the crosswalk file
                    were updated as of January 13, 2005.

                    As of January 13, 2005, CMS had established prices for 459 HCPCS
                    codes based on the ASP reimbursement methodology. This total
                    excludes HCPCS code J3490, which is defined as “unclassified drugs.”
                    Reimbursement amounts for the 459 HCPCS codes were based on ASP
                    data for 2,399 NDCs. We reviewed the method CMS used to calculate a
                    volume-weighted ASP for each of the 459 HCPCS codes, examining each

                    5Discretion to change the unit of ASP submission is permitted by section 1847A(b)(2)(B) of
                     the Act.

 OEI-03-05-00310    C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                                          4
I N T R O D        U C T              I O N


                    step to ensure that CMS’s calculation was mathematically correct.
                    However, we did not verify the accuracy of the billing unit information
                    contained in CMS’s crosswalk file.

                    We concluded that CMS’s calculation was problematic, and therefore
                    developed an alternate method for calculating a volume-weighted ASP
                    and used this method to calculate alternate volume-weighted ASPs for
                    each of the 459 HCPCS codes. Under this method, billing units are used
                    as the standard unit across all NDCs for a particular HCPCS code, just
                    as they are in CMS’s calculation. However, the Office of Inspector
                    General’s (OIG) calculation uses billing units differently than CMS’s
                    calculation. OIG’s alternate equation is as follows:

                   Volume-Weighted ASP                                        Sum of (ASP for NDC * Number of NDCs Sold )
                    for the Billing Unit of =
                        HCPCS Code                                         Sum of (Number of NDCs Sold * Billing Units in NDC)


                    As mentioned earlier, the Medicare allowance for a HCPCS code is
                    equal to 106 percent of the volume-weighted ASP. Therefore, to
                    determine what the Medicare reimbursement amount would be
                    according to the alternate calculation, we multiplied OIG’s volume-
                    weighted ASPs for each of the 459 codes by 1.06. We then compared our
                    reimbursement amounts to CMS’s reimbursement amounts and
                    identified codes for which the reimbursements differed. To estimate the
                    monetary impact of using the OIG reimbursement rather than the CMS
                    reimbursement, we first subtracted OIG’s first quarter 2005
                    reimbursement amount from CMS’s first quarter 2005 reimbursement
                    amount for each HCPCS code. We then multiplied the difference by the
                    number of services that were allowed by Medicare for each HCPCS code
                    in 2004, as reported in CMS’s Part B Extract and Summary System
                    (BESS).6 This estimate assumes that the volume-weighted ASP for
                    each HCPCS code will remain consistent throughout 2005. However,
                    the ASP amounts submitted by manufacturers may actually vary from
                    quarter to quarter.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and Efficiency
                    and the Executive Council on Integrity and Efficiency.


                    6At the time of extraction, BESS data were 96 percent complete for HCPCS codes processed
                     by local carriers and 91 percent complete for HCPCS codes processed by the durable
                     medical equipment regional carriers.

 OEI-03-05-00310    C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                             5
Δ   F I N D I N G S 




      The method CMS uses to calculate volume-                The method CMS uses to
        weighted average sales price is incorrect             calculate a volume-weighted
                                                              ASP for a HCPCS code is
                  mathematically incorrect because CMS does not use billing units
                  consistently throughout its equation. Although CMS uses billing units
                  to standardize ASPs across NDCs for each HCPCS code, it does not
                  similarly standardize sales volume across NDCs. As a result, CMS’s
                  equation may not always yield the same volume-weighted ASP as that
                  derived from the equation set forth in section 1847A(b)(3) of the Act.7
                  To address this inconsistency, OIG developed an alternate method for
                  calculating a volume-weighted ASP. The alternate calculation corrects
                  the deficiencies in CMS’s calculation by multiplying the number of
                  NDCs sold by the number of billing units in the NDC in both the
                  numerator and denominator of the equation. As a result, OIG’s
                  alternate calculation produces a volume-weighted ASP that is both
                  mathematically correct and consistent with the results of the ASP
                  calculation set forth in the Act. A more detailed explanation of OIG’s
                  equation is presented in Appendix A.

                  To illustrate this point, we calculated volume-weighted ASP for HCPCS
                  code X using the calculation derived from the statute, CMS’s
                  calculation, and OIG’s alternate calculation. In this example, there are
                  four different NDCs that meet the description of HCPCS code X, which
                  is defined as 5 milliliters of Drug A. The table on the next page provides
                  ASP information for each of the four NDCs. Columns C and D
                  demonstrate the way that manufacturers would have submitted the
                  ASP data if CMS had used the original unit of ASP submission (i.e., the
                  lowest identifiable quantity of the drug). Columns E and F illustrate
                  the way that manufacturers would currently submit the ASP and sales
                  volume for each of the NDCs (i.e., in terms of NDC units). Column G
                  shows the number of 5-milliliter units that are contained in each of the
                  four NDCs associated with HCPCS code X.

                  As shown on the next page, CMS’s calculation yields a volume-weighted
                  ASP for HCPCS code X that is $0.73 higher than the volume-weighted
                  ASP derived from either the calculation specified in section 1847A(b)(3)
                  of the Act or OIG’s alternate calculation.



                  7The calculation described in section 1847A(b)(3) of the Act does consistently use a
                     standardized unit (i.e., the lowest identifiable quantity of the drug).

OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                               6
F   I N D I N G                  S


Calculating A Volume-Weighted ASP for HCPCS Code X (5 mL of Drug A)


                                     ASP Information for Four NDCs Associated With HCPCS Code X
                A                B                         C                        D                        E                    F             G

                         Total Amount               ASP                       Number                     ASP                Number
                                                                                                                                           Billing Units
               NDC          of Drug             for One Unit               of 1-mL Units                  for                 of
                                                                                                                                              in NDC
                            in NDC                 (1 mL)                       Sold                  Entire NDC           NDCs Sold

                 1            2 mL                    $4.35                     57,600                    $8.70              28,800             0.4
                 2            2 mL                    $4.25                     84,660                    $8.50              42,330             0.4
                 3            3 mL                    $3.98                    116,640                   $11.94              38,880             0.6
                 4            4 mL                    $3.14                    210,760                   $12.56              52,690             0.8


     1. Volume-Weighted ASP for HCPCS Code X Based on the Calculation in the Law


          Sum of (ASP for One Unit * Number of Units Sold)                                     Amount of Drug Specified                   Volume-Weighted ASP
                                                                                         *        by HCPCS Code                       =     for HCPCS Code
                     Sum of Number of Units Sold


          ($4.35 * 57,600) + ($4.25 * 84,660) + ($3.98 * 116,640) + ($3.14 * 210,760)
                                                                                                                       *   5 mL       =         $18.49
                          57,600 + 84,660 + 116,640 + 210,760



     2. Volume-Weighted ASP for HCPCS Code X Based on CMS’s Calculation

                                          ASP for NDC
                        Sum of                                        * Number of NDCs Sold
                                     Billing Units in NDC                                                                                 Volume-Weighted ASP
                                                                                                                                      =     for HCPCS Code
                                       Sum of Number of NDCs Sold



          $8.70                      $8.50                              $11.94                            $12.56 * 52,690
                * 28,800 +                 * 42,330 +                          * 38,880 +
           0.4                        0.4                                 0.6                              0.8
                                                                                                                                      =         $19.22
                                     28,800 + 42,330 + 38,880 + 52,690


     3. Volume-Weighted ASP for HCPCS Code X Based on OIG’s Calculation


                            Sum of (ASP for NDC * Number of NDCs Sold )                                                                   Volume-Weighted ASP
                                                                                                                                      =     for HCPCS Code
                         Sum of (Number of NDCs Sold * Billing Units in NDC)



               ($8.70 * 28,800) + ($8.50 * 42,330) + ($11.94 * 38,880) + ($12.56 * 52,690)
                                                                                                                                      =         $18.49
                      (28,800* 0.4) + (42,330 * 0.4) + (38,880 * 0.6) + (52,690 * 0.8)


    OEI-03-05-00310           C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                                                                7
F FI IN ND DI IN NG GS S



                      We believe that the discrepancy between CMS’s results and the results
                      of the other two calculations stems from the fact that CMS uses billing
                      units to standardize ASPs but not the number of NDCs sold. In the
                      numerator of its equation, CMS standardizes ASPs across NDCs by
                      calculating an ASP per billing unit for each NDC. 8 However, CMS does
                      not convert the number of NDCs sold into the number of billing units
                      sold in the numerator, nor does CMS convert NDCs sold into billing
                      units sold in the denominator. Instead, CMS continues to use the
                      number of NDCs sold. CMS treats these sales figures as if they
                      represent a standard amount of the drug when, in fact, the amount of
                      the drug in each NDC may vary from one NDC to the next. Summing
                      the number of NDCs sold across NDCs is similar to concluding that
                      5 nickels, 2 dimes, and 1 quarter equals 8 cents because 5+2+1=8.


                                                           Volume-weighted ASPs form the
    Because CMS calculates volume-weighted
                                                           basis for the reimbursement of most
         ASPs incorrectly, current and future
                                                           Part B drugs. Therefore, the
 reimbursement amounts may not be accurate                 incorrect calculation of volume-
                      weighted ASPs has a significant impact on the Medicare program, its
                      health care providers, and its beneficiaries.
                      The method CMS uses to calculate volume-weighted ASPs often results in
                      reimbursement amounts that are either too high or too low
                      According to our analysis of data from the first quarter of 2005, almost
                      60 percent of published HCPCS codes had a reimbursement amount
                      that was either too high or too low when compared to the results of
                      OIG’s alternate calculation. Reimbursement amounts for the remaining
                      HCPCS codes would have been the same regardless of whether CMS’s
                      or OIG’s calculation was used.
                      For 46 percent of HCPCS codes, CMS’s reimbursement amount was too high.
                      For 212 of the 459 HCPCS codes, the Medicare reimbursement amount as
                      calculated by CMS was higher than the Medicare reimbursement amount
                      as calculated by OIG. Of these HCPCS codes, 18 had a reimbursement
                      amount that was at least twice as much as it would have been using OIG’s
                      method, and 3 had a reimbursement amount that was at least 5 times
                      what it would have been using the OIG method.



                      8The ASP per billing unit is the ASP for the entire NDC divided by the number of billing
                         units in the NDC. In terms of the table on page 7, this would be Column E divided by
                         Column G.

    OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                   8
F   I N D I N G 
S


                      Based on the number of services allowed in 2004, the Medicare program
                      and its beneficiaries would pay an estimated $115 million less in 2005 if
                      reimbursement amounts were calculated using OIG’s method rather
                      than CMS’s method. Adjusting the calculation for just two codes, J9217
                      and J2275, would result in an estimated savings of almost $50 million
                      for the Medicare program in the year 2005. 9 A list of all 212 HCPCS
                      codes is presented in Appendix B.
                      For 13 percent of HCPCS codes, CMS’s reimbursement amount was too low. For
                      61 of the 459 HCPCS codes, the Medicare reimbursement amount as
                      calculated by CMS was lower than the Medicare reimbursement amount
                      as calculated by OIG. Of these HCPCS codes, seven had a reimbursement
                      amount that was at least 10 percent lower than it would have been using
                      OIG’s calculation.

                      We estimate that providers who bill Medicare for the 61 HCPCS codes
                      would gain about $5 million in the year 2005 if OIG’s method for
                      calculating a volume-weighted ASP were used instead of CMS’s method.
                      In fact, providers who bill Medicare for one HCPCS code alone, J2430,
                      would receive an estimated $1.6 million more in the year 2005. 10 A list
                      of all 61 HCPCS codes is presented in Appendix C.
                      For the remaining 41 percent of HCPCS codes, there was no difference between
                      the reimbursement amount calculated by CMS and the reimbursement amount
                      calculated by OIG. CMS and OIG calculations yielded the same result for
                      the remaining 186 HCPCS codes. In these cases, CMS’s inconsistent use
                      of billing units did not affect the results, usually because there was only
                      one NDC used to price the HCPCS code and therefore no need to weight
                      the data by volume. A list of these 186 HCPCS codes is presented in
                      Appendix D.
                      CMS’s incorrect calculation of volume-weighted ASPs affects statutory
                      mandates to monitor and adjust drug reimbursement amounts
                      To monitor new reimbursement amounts based on ASPs, section
                      1847A(d)(2)(B) of the Act mandates that OIG perform comparisons
                      between ASPs and both average manufacturer prices (AMP) and widely
                      available market prices (WAMP). If OIG determines that the ASP for a
                      drug exceeds either the AMP or the WAMP by 5 percent, the Secretary



                      9HCPCS code J9217 represents leuprolide acetate (for depot suspension), 7.5 mg; and
                       HCPCS code J2275 represents an injection of morphine sulfate (preservative-free sterile
                       solution), per 10 mg.
                      10HCPCS code J2430 represents an injection of pamidronate disodium, per 30 mg.


    OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                   9
F   I N D I N G         S


                      may substitute the payment amount for that drug product with the lower
                      of either the WAMP or 103 percent of the AMP.

                      CMS’s incorrect calculation affects the outcome of future pricing
                      comparisons performed by OIG, which in turn affect whether
                      reimbursement amounts are lowered. If volume-weighted ASPs and
                      volume-weighted AMPs are not calculated correctly, reimbursement
                      amounts for some HCPCS codes may be lowered to 103 percent of the AMP
                      or the WAMP when they should not be, and reimbursement amounts for
                      other codes would remain the same when, according to the statute, they
                      may be lowered.
                      The following example illustrates a case in which the method used to
                      calculate volume-weighted ASPs and AMPs affects the outcome of the
                      comparison between the ASP and the AMP. In this example, CMS’s
                      calculation results in a volume-weighted ASP of $1.20 and a volume-
                      weighted AMP of $1.10 for a given HCPCS code, while OIG’s calculation
                      results in a volume-weighted ASP of $1.17 and a volume-weighted AMP of
                      $1.15 for that same HCPCS code. According to CMS’s calculation, the ASP
                      exceeds the AMP by 9 percent, which meets the 5-percent threshold
                      specified in the Act. The reimbursement amount for this drug would then
                      be eligible to be lowered to 103 percent of the AMP, or $1.13. However,
                      according to OIG’s calculation, the ASP exceeds the AMP by only
                      2 percent, which does not meet the 5-percent threshold. Using OIG’s
                      calculation, the reimbursement for this HCPCS code would not be lowered.




    OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                   10
E XE E
R    C CO UM TM I E V N E D AS TU I MO MN A R Y
Δ     R E C O M M E N D A T I O N                                                                     


                    Volume-weighted ASPs form the basis on which providers are
                    reimbursed for most Part B drugs. Therefore, any inaccuracies in these
                    amounts have significant implications for the Medicare program, its
                    health care providers, and its beneficiaries. We believe that CMS’s
                    method for calculating volume-weighted ASPs is incorrect, and that the
                    incorrect calculation can produce improper reimbursement amounts.
                    Although we identified many HCPCS codes for which reimbursement
                    was too high in the first quarter of 2005, we also found a number of
                    HCPCS codes for which reimbursement was too low. Moreover, the
                    ratio between codes with reimbursements that are too high and those
                    with reimbursements that are too low may periodically fluctuate given
                    that the ASP data change from quarter to quarter.

                    Furthermore, CMS’s incorrect calculation has implications for future
                    adjustments to reimbursement amounts based on OIG pricing
                    comparisons mandated by the MMA. It is therefore critical that the
                    calculation of volume-weighted ASPs be performed correctly for all
                    HCPCS codes.
                    CMS Should Change its Method for Calculating Volume-Weighted ASPs
                    We propose that CMS adopt an alternate equation, which uses billing
                    units consistently and produces a volume-weighted ASP that is both
                    mathematically correct and consistent with the results of the calculation
                    set forth in section 1847A(b)(3) of the Act.


                    AGENCY COMMENTS
                    CMS indicated that it will consider the report’s findings in its ongoing
                    efforts to enhance implementation of the new ASP payment
                    methodology. CMS also stated that it presented the current ASP
                    calculation in proposed rule 70 Fed. Reg. 45764, 45844 (August 8, 2005)
                    and received public comments on its approach. As CMS gains more
                    experience with the ASP data, and as more information becomes
                    available, CMS stated that it may consider altering the ASP
                    methodology.

                    The full text of CMS’s comments can be found in Appendix E.


                    OFFICE OF INSPECTOR GENERAL RESPONSE
                    We continue to believe that CMS is calculating volume-weighted ASP
                    incorrectly, and that this incorrect calculation results in reimbursement
                    amounts that are inaccurate and inconsistent with the ASP payment
                    methodology set forth in section 1847A(b)(3) of the Act. According to
  OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                 11
R   E C O        M M E N D A T                            I O N


                      our analysis of prices from the first quarter of 2005, the net effect of
                      inaccurate payments is a loss for the Medicare Trust Fund.

                      OIG’s concerns about the ASP calculation were echoed in the comments
                      CMS received on proposed rule 70 Fed. Reg. 45764, 45844 (August 8,
                      2005). In response to the proposed rule, several manufacturers or their
                      representatives noted that products are available in different package
                      sizes and that a billing code may encompass multiple NDCs; therefore,
                      weighting the ASP payment amount by NDCs sold does not reflect the
                      true weighted average price per billing unit. These commenters
                      suggested that CMS revise its calculation so that the payment limit is
                      based on the weighted ASP of the number of billing units sold rather
                      than the number of NDCs sold. Commenters on the proposed rule
                      recognized that such a change could result in an increase or decrease to
                      the reimbursement amount, but recommended that the calculation be
                      altered nonetheless.

                      We look forward to receiving CMS’s comments on this final report.




    OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                   12
A   P   P E N D         I X ~              A
Δ       A P P E N D I X                                      ~            A



     1. The Equation Used by CMS to Calculate a Volume-Weighted ASP
        In the following equation, a “unit” is defined as the entire amount of the drug
        contained in the NDC:



                                                                                              ASP for NDC              * Number of NDCs Sold
                  Volume-Weighted ASP                             Sum of
                                                                                        Billing Units in NDC
                   for the Billing Unit of
                       HCPCS Code          =
                                                                                                       Sum of Number of NDCs Sold




     2. The Equation Used by OIG to Calculate a Volume-Weighted ASP
        We suggest that CMS’s calculation should be modified by multiplying the number of
        NDCs sold by the number of billing units in the NDC in both the numerator and
        denominator of the equation:



                                                                           ASP for NDC                  * Number of NDCs Sold * Billing Units in NDC
        Volume-Weighted ASP                      Sum of
                                                                     Billing Units in NDC
         for the Billing Unit of
             HCPCS Code          =
                                                                           Sum of (Number of NDCs Sold * Billing Units in NDC)


         However, the terms “Billing Units in NDC” in the numerator of the equation cancel
         each other out:


                                                                           ASP for NDC                 * Number of NDCs Sold * Billing Units in NDC
        Volume-Weighted ASP                      Sum of
                                                                     Billing Units in NDC
         for the Billing Unit of
             HCPCS Code          =
                                                                         Sum of (Number of NDCs Sold * Billing Units in NDC)


        Therefore, OIG’s equation is written in the following way:



                  Volume-Weighted ASP                                          Sum of (ASP for NDC * Number of NDCs Sold)
                   for the Billing Unit of =
                       HCPCS Code                                         Sum of (Number of NDCs Sold * Billing Units in NDC)




    OEI-03-05-00310       C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                                               13
Δ   A P P E N D I X                                  ~            B



     Table 1: Codes for Which CMS’s Reimbursement Amount Exceeded
     OIG’s Reimbursement Amount
                                                                    Estimated Monetary
                   CMS's         OIG's      Difference % Difference
      HCPCS                                                         Impact of Correcting
               Reimbursement Reimbursement   Between    Between
       Code                                                          CMS’s Calculation
                  Amount        Amount     CMS and OIG CMS and OIG
                                                                     (Gain to Medicare)
     J9217                $253.13                          $230.09                        $23.04               10.01%    $32,374,264.32
     J2275                  $11.75                             $4.88                        $6.87              140.78%   $16,556,926.71
     Q0136                  $10.18                           $10.07                         $0.11               1.09%     $9,324,462.07
     J7317                $110.27                          $101.03                          $9.24               9.15%     $5,975,905.32
     J9202                $189.79                          $184.64                          $5.15               2.79%     $5,013,185.10
     J1260                    $6.61                            $5.78                        $0.83              14.36%     $4,859,645.85
     J1563                  $56.72                           $55.57                         $1.15               2.07%     $4,688,351.05
     J2790                $102.36                            $97.93                         $4.43               4.52%     $4,108,156.07
     J1626                    $7.09                            $6.57                        $0.52               7.91%     $2,601,538.16
     J7644                    $0.29                            $0.28                        $0.01               3.57%     $2,137,831.40
     J1100                    $0.14                            $0.03                        $0.11              366.67%    $2,038,162.17
     J7506                    $0.22                            $0.03                        $0.19              633.33%    $1,694,987.15
     J2353                  $85.39                           $82.91                         $2.48               2.99%     $1,630,845.52
     J3420                    $0.47                            $0.11                        $0.36              327.27%    $1,465,893.00
     J9045                $125.47                          $124.72                          $0.75               0.60%     $1,441,580.25
     J9390                  $69.09                           $65.55                         $3.54               5.40%     $1,324,887.48
     J1030                    $5.36                            $4.70                        $0.66              14.04%     $1,324,384.38
     J1642                    $0.07                            $0.02                        $0.05              250.00%    $1,082,555.20
     J1040                    $9.75                            $9.20                        $0.55               5.98%      $982,224.10
     J3301                    $1.32                            $1.19                        $0.13              10.92%      $952,077.49
     J1080                  $12.62                             $9.01                        $3.61              40.07%      $933,574.88
     J1170                    $1.71                            $1.39                        $0.32              23.02%      $825,428.80
     J0150                  $31.07                           $27.74                         $3.33              12.00%      $804,461.40
     J7507                    $3.31                            $3.29                        $0.02               0.61%      $739,314.16
     J2270                    $1.86                            $0.56                        $1.30              232.14%     $691,308.80
     J1564                    $0.57                            $0.55                        $0.02               3.64%      $671,911.78
     J1245                    $1.93                            $1.49                        $0.44              29.53%      $569,168.60
     J1325                  $12.16                           $11.91                         $0.25               2.10%      $523,334.75
     J9190                    $1.68                            $1.43                        $0.25              17.48%      $437,058.50
     J2271                    $5.07                            $2.60                        $2.47              95.00%      $424,229.91
     J0880                  $17.72                           $17.71                         $0.01               0.06%      $408,226.02
     J1550                $100.02                            $94.54                         $5.48               5.80%      $395,721.76
     J0256                    $3.28                            $3.08                        $0.20               6.49%      $386,787.60
     J0475                $180.49                          $176.03                          $4.46               2.53%      $382,346.88
     J1250                    $5.11                            $3.69                        $1.42              38.48%      $348,010.76
     J0152                  $70.00                           $69.75                         $0.25               0.36%      $344,831.75
     J7608                    $2.30                            $1.73                        $0.57              32.95%      $299,276.22
     J0640                    $1.30                            $1.22                        $0.08               6.56%      $287,072.72
     J2912                    $0.15                            $0.03                        $0.12              400.00%     $276,065.04
     J9000                    $4.25                            $3.92                        $0.33               8.42%      $265,254.99
     J9265                  $15.85                           $15.72                         $0.13               0.83%      $243,959.95
     J0895                  $15.67                           $15.40                         $0.27               1.75%      $182,897.19


OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                                     14
 A P     P E N D       I X ~                  B


     Table 1: Codes for Which CMS’s Reimbursement Amount Exceeded
     OIG’s Reimbursement Amount
                                                                    Estimated Monetary
                   CMS's         OIG's      Difference % Difference
      HCPCS                                                         Impact of Correcting
               Reimbursement Reimbursement   Between    Between
       Code                                                          CMS’s Calculation
                  Amount        Amount     CMS and OIG CMS and OIG
                                                                     (Gain to Medicare)
     J2260                    $4.77                            $4.49                        $0.28               6.24%    $173,673.64
     Q0179                  $30.86                           $28.92                         $1.94               6.71%    $159,836.60
     J1885                    $0.64                            $0.50                        $0.14              28.00%    $158,952.64
     J9214                  $13.12                           $13.06                         $0.06               0.46%    $136,586.58
     J7669                    $0.26                            $0.25                        $0.01               4.00%    $135,115.32
     J2997                  $30.15                           $27.10                         $3.05              11.25%    $125,806.40
     J1580                    $1.44                            $0.52                        $0.92              176.92%   $124,395.04
     J3303                    $1.76                            $1.37                        $0.39              28.47%    $124,372.17
     J9260                    $2.16                            $1.53                        $0.63              41.18%    $109,302.48
     Q0187             $1,043.05                        $1,037.96                           $5.09               0.49%    $103,820.73
     J1745                  $53.08                           $53.07                         $0.01               0.02%     $93,175.94
     J2175                    $1.37                            $0.85                        $0.52              61.18%     $91,967.72
     J1950                $445.11                          $429.96                        $15.15                3.52%     $78,295.20
     J1644                    $0.10                            $0.04                        $0.06              150.00%    $75,384.24
     J2300                    $1.33                            $0.54                        $0.79              146.30%    $73,007.85
     J2250                    $0.48                            $0.29                        $0.19              65.52%     $67,366.02
     J2820                  $21.67                           $21.59                         $0.08               0.37%     $58,779.84
     J3010                    $0.27                            $0.24                        $0.03              12.50%     $56,022.66
     J9090                  $13.91                           $11.91                         $2.00              16.79%     $54,766.00
     J2355                $243.35                          $241.67                          $1.68               0.70%     $46,045.44
     J1200                    $0.94                            $0.88                        $0.06               6.82%     $43,953.60
     J3370                    $2.42                            $2.27                        $0.15               6.61%     $42,812.10
     J0280                    $0.50                            $0.35                        $0.15              42.86%     $41,536.95
     J1817                    $2.18                            $2.15                        $0.03               1.40%     $39,502.35
     J3410                    $0.35                            $0.08                        $0.27              337.50%    $37,937.43
     J0698                    $5.02                            $4.32                        $0.70              16.20%     $37,765.00
     J9062                  $18.37                           $17.94                         $0.43               2.40%     $36,858.31
     J7060                    $0.79                            $0.69                        $0.10              14.49%     $35,240.00
     J7051                    $0.01                            $0.00                        $0.01                  N/A    $34,727.40
     J1940                    $0.49                            $0.35                        $0.14              40.00%     $33,559.82
     J2010                    $3.48                            $3.33                        $0.15               4.50%     $31,658.10
     J3480                    $0.08                            $0.04                        $0.04              100.00%    $29,124.64
     J9182                    $4.51                            $4.35                        $0.16               3.68%     $28,641.60
     J7070                    $2.73                            $2.22                        $0.51              22.97%     $28,536.54
     J2060                    $1.27                            $0.98                        $0.29              29.59%     $27,982.97
     J9100                    $1.68                            $1.12                        $0.56              50.00%     $27,009.36
     Q0180                  $47.72                           $43.33                         $4.39              10.13%     $26,620.96
     J2150                    $1.02                            $0.75                        $0.27              36.00%     $26,580.42
     J1631                    $5.80                            $5.49                        $0.31               5.65%     $26,469.35
     J2550                    $2.15                            $2.05                        $0.10               4.88%     $24,214.60
     J9001                $356.35                          $356.13                          $0.22               0.06%     $24,175.80
     J0970                  $29.67                           $28.81                         $0.86               2.99%     $22,988.66
     J9110                    $8.38                            $5.64                        $2.74              48.58%     $19,253.98
     J9250                    $0.20                            $0.17                        $0.03              17.65%     $18,879.24

OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                                  15
 A   P   P E N D       I X ~                  B


     Table 1: Codes for Which CMS’s Reimbursement Amount Exceeded
     OIG’s Reimbursement Amount
                                                                    Estimated Monetary
                   CMS's         OIG's      Difference % Difference
      HCPCS                                                         Impact of Correcting
               Reimbursement Reimbursement   Between    Between
       Code                                                          CMS’s Calculation
                  Amount        Amount     CMS and OIG CMS and OIG
                                                                     (Gain to Medicare)
     J7192                    $0.92                            $0.91                        $0.01                1.10%    $18,782.04
     Q0166                  $32.54                           $30.80                         $1.74                5.65%    $17,810.64
     J0690                    $0.28                            $0.16                        $0.12               75.00%    $17,532.00
     J9181                    $0.45                            $0.43                        $0.02                4.65%    $15,624.82
     J9070                    $2.34                            $2.27                        $0.07                3.08%    $14,788.69
     J0460                    $0.26                            $0.17                        $0.09               52.94%    $14,714.28
     J9213                  $30.84                           $30.31                         $0.53                1.75%    $14,446.74
     J0670                    $1.60                            $1.49                        $0.11                7.38%    $14,305.17
     J7130                    $1.25                            $0.02                        $1.23              6150.00%   $13,975.26
     J7042                    $0.14                            $0.06                        $0.08              133.33%    $13,844.48
     J9140                  $11.25                           $10.67                         $0.58                5.44%    $13,735.56
     J0595                    $1.82                            $1.22                        $0.60               49.18%    $13,224.00
     90703                  $14.53                           $14.33                         $0.20                1.40%    $12,742.60
     J9091                  $23.43                           $22.69                         $0.74                3.26%    $12,601.46
     J1645                    $9.92                            $9.60                        $0.32                3.33%    $12,446.08
     J0800                  $93.71                           $93.70                         $0.01                0.01%    $12,271.37
     J3315                $180.93                          $176.24                          $4.69                2.66%    $11,274.76
     J9360                    $0.96                            $0.87                        $0.09               10.34%    $10,862.55
     J2930                    $2.62                            $2.58                        $0.04                1.55%    $10,626.68
     J7030                    $0.10                            $0.08                        $0.02               25.00%    $10,563.68
     J2360                  $15.95                           $15.12                         $0.83                5.49%    $10,541.00
     J9130                    $5.29                            $4.98                        $0.31                6.22%     $9,850.87
     J7040                    $0.05                            $0.04                        $0.01               25.00%     $8,872.26
     J0215                  $26.65                           $26.62                         $0.03                0.11%     $8,430.90
     J9060                    $4.96                            $4.94                        $0.02                0.40%     $6,431.84
     J1390                  $14.83                           $14.41                         $0.42                2.91%     $6,092.52
     J3360                    $0.56                            $0.42                        $0.14               33.33%     $5,434.10
     Q4076                    $0.72                            $0.35                        $0.37              105.71%     $5,375.36
     J9150                  $27.42                           $24.38                         $3.04               12.47%     $5,192.32
     J1610                  $55.17                           $54.65                         $0.52                0.95%     $2,730.00
     J9375                    $7.00                            $6.93                        $0.07                1.01%     $2,728.25
     Q3025                  $85.18                           $85.17                         $0.01                0.01%     $2,646.79
     J9092                  $46.86                           $45.38                         $1.48                3.26%     $2,641.80
     J0637                  $31.88                           $31.79                         $0.09                0.28%     $2,641.23
     J3265                    $2.28                            $2.00                        $0.28               14.00%     $2,586.36
     J1190                $211.38                          $211.07                          $0.31                0.15%     $2,553.47
     J9080                    $4.69                            $4.54                        $0.15                3.30%     $2,511.45
     J2510                    $8.28                            $8.02                        $0.26                3.24%     $2,452.58
     Q0168                    $8.31                            $8.17                        $0.14                1.71%     $2,396.66
     J1470                  $20.00                           $18.91                         $1.09                5.76%     $2,389.28
     J9017                  $33.30                           $33.29                         $0.01                0.03%     $2,339.49
     J2400                  $16.52                           $16.26                         $0.26                1.60%     $2,245.36
     J1560                $100.02                            $94.54                         $5.48                5.80%     $2,076.92
     J2540                    $1.00                            $0.54                        $0.46               85.19%     $2,018.94

OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                                  16
 A   P   P E N D       I X ~                  B


     Table 1: Codes for Which CMS’s Reimbursement Amount Exceeded
     OIG’s Reimbursement Amount
                                                                    Estimated Monetary
                   CMS's         OIG's      Difference % Difference
      HCPCS                                                         Impact of Correcting
               Reimbursement Reimbursement   Between    Between
       Code                                                          CMS’s Calculation
                  Amount        Amount     CMS and OIG CMS and OIG
                                                                     (Gain to Medicare)
     J9370                    $3.50                            $3.47                        $0.03               0.86%    $2,014.14
     90632                  $44.43                           $42.98                         $1.45               3.37%    $1,771.90
     J2354                    $4.67                            $4.61                        $0.06               1.30%    $1,770.66
     J0692                    $6.89                            $6.87                        $0.02               0.29%    $1,682.20
     J1490                  $40.01                           $37.82                         $2.19               5.79%    $1,600.89
     J1500                  $50.01                           $47.28                         $2.73               5.77%    $1,490.58
     J0270                    $1.82                            $1.22                        $0.60              49.18%    $1,281.60
     J0697                    $4.35                            $4.22                        $0.13               3.08%    $1,248.13
     J0610                    $0.05                            $0.04                        $0.01              25.00%    $1,243.90
     J0500                  $13.03                           $12.70                         $0.33               2.60%    $1,220.01
     J0694                  $11.90                           $11.64                         $0.26               2.23%    $1,193.14
     J0170                    $0.29                            $0.27                        $0.02               7.41%    $1,158.54
     90718                    $9.25                            $9.24                        $0.01               0.11%    $1,107.64
     J1160                    $3.04                            $1.51                        $1.53              101.32%    $962.37
     J1956                    $7.64                            $7.61                        $0.03               0.39%     $879.75
     J3105                  $12.66                           $12.40                         $0.26               2.10%     $812.76
     J7120                    $0.76                            $0.75                        $0.01               1.33%     $776.54
     J0743                  $11.72                           $11.64                         $0.08               0.69%     $776.48
     J2765                    $0.45                            $0.43                        $0.02               4.65%     $757.36
     J2680                    $1.14                            $1.13                        $0.01               0.88%     $716.92
     J2700                    $1.61                            $1.57                        $0.04               2.55%     $662.08
     J2020                  $23.76                           $23.68                         $0.08               0.34%     $499.04
     J2810                    $0.38                            $0.30                        $0.08              26.67%     $495.60
     J1720                    $1.81                            $1.80                        $0.01               0.56%     $450.14
     J0295                    $6.67                            $6.61                        $0.06               0.91%     $438.24
     J0290                    $0.21                            $0.20                        $0.01               5.00%     $427.37
     J1600                  $11.30                           $11.28                         $0.02               0.18%     $378.92
     J1460                  $10.00                             $9.46                        $0.54               5.71%     $331.56
     J1480                  $30.00                           $28.37                         $1.63               5.75%     $324.37
     J0540                  $23.02                           $23.01                         $0.01               0.04%     $245.49
     J1530                  $80.02                           $75.63                         $4.39               5.80%     $237.06
     J0744                    $8.57                            $8.47                        $0.10               1.18%     $224.80
     J0282                    $0.38                            $0.28                        $0.10              35.71%     $219.40
     J1455                  $10.63                           $10.62                         $0.01               0.09%     $213.90
     J1327                  $12.40                           $11.90                         $0.50               4.20%     $184.00
     J1510                  $60.05                           $56.73                         $3.32               5.85%     $169.32
     J3230                    $2.39                            $2.22                        $0.17               7.66%     $151.64
     J2795                    $0.08                            $0.07                        $0.01              14.29%     $148.49
     J9218                  $13.49                           $13.15                         $0.34               2.59%     $146.54
     J2560                    $3.17                            $2.52                        $0.65              25.79%     $101.40
     J8530                    $1.02                            $1.00                        $0.02               2.00%      $99.72
     90375                  $62.06                           $61.86                         $0.20               0.32%      $91.00
     J2993                $877.12                          $873.92                          $3.20               0.37%      $70.40
     J1540                  $90.08                           $85.12                         $4.96               5.83%      $59.52

OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                                17
 A   P   P E N D       I X ~                  B


     Table 1: Codes for Which CMS’s Reimbursement Amount Exceeded
     OIG’s Reimbursement Amount
                                                                    Estimated Monetary
                   CMS's         OIG's      Difference % Difference
      HCPCS                                                         Impact of Correcting
               Reimbursement Reimbursement   Between    Between
       Code                                                          CMS’s Calculation
                  Amount        Amount     CMS and OIG CMS and OIG
                                                                     (Gain to Medicare)
     J1815                    $0.22                            $0.21                        $0.01               4.76%             $41.47
     J1165                    $0.61                            $0.54                        $0.07              12.96%             $39.13
     J9380                  $17.50                           $17.34                         $0.16               0.92%             $38.72
     J1955                  $14.65                           $14.10                         $0.55               3.90%             $30.80
     J1520                  $69.96                           $66.14                         $3.82               5.78%             $30.56
     J0456                  $23.56                           $23.55                         $0.01               0.04%             $26.78
     Q0163                    $0.03                            $0.02                        $0.01              50.00%             $17.80
     Q2009                    $5.10                            $4.67                        $0.43               9.21%             $17.63
     J0745                    $0.49                            $0.45                        $0.04               8.89%             $16.36
     J8700                    $7.17                            $7.16                        $0.01               0.14%             $14.25
     J2280                    $3.77                            $3.76                        $0.01               0.27%             $13.60
     J2515                    $1.85                            $1.73                        $0.12               6.94%             $11.64
     J0330                    $0.10                            $0.08                        $0.02              25.00%              $9.08
     Q0178                    $0.08                            $0.07                        $0.01              14.29%              $7.85
     Q0164                    $0.06                            $0.05                        $0.01              20.00%              $7.14
     J2710                    $0.06                            $0.03                        $0.03              100.00%             $6.87
     J8610                    $0.21                            $0.19                        $0.02              10.53%              $5.08
     90633                  $21.95                           $21.42                         $0.53               2.47%              $4.77
     J0706                    $3.27                            $3.26                        $0.01               0.31%              $3.97
     J0360                    $7.13                            $7.12                        $0.01               0.14%              $3.24
     90385                  $25.77                           $25.47                         $0.30               1.18%              $2.10
     J0300                    $2.47                            $2.44                        $0.03               1.23%              $0.90
     J0470                  $18.62                           $18.61                         $0.01               0.05%              $0.88
     J3030                  $49.03                           $49.00                         $0.03               0.06%              $0.12
     Q0172                    $0.09                            $0.08                        $0.01              12.50%              $0.12
     J2940                  $40.16                           $40.15                         $0.01               0.02%              $0.01
     90705                  $13.68                           $13.67                         $0.01               0.07%              $0.00
     90707                  $35.96                           $35.94                         $0.02               0.06%              $0.00
     90716                  $63.23                           $62.41                         $0.82               1.31%              $0.00
     J2941                  $42.38                           $42.32                         $0.06               0.14%              $0.00
     J7344                  $59.63                           $17.68                       $41.95               237.27%             $0.00
     J7613                    $0.07                            $0.05                        $0.02              40.00%              $0.00
     J7614                    $1.28                            $1.09                        $0.19              17.43%              $0.00
     J7616                    $2.60                            $2.50                        $0.10               4.00%              $0.00
     J9035                  $57.08                           $57.07                         $0.01               0.02%              $0.00
     J9305                  $40.54                           $40.53                         $0.01               0.02%              $0.00
     Q2019             $1,476.21                        $1,468.31                           $7.90               0.54%              $0.00
     J3246                    $7.85                            $7.77                        $0.08               1.03%       Not Available
      Total                                                                                                              $115,221,345.93




OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                                      18
Δ   A P P E N D I X                                  ~            C


     Table 2: Codes for Which CMS’s Reimbursement Amount Was Less Than
     OIG’s Reimbursement Amount
                                                                    Estimated Monetary
                   CMS's         OIG's      Difference % Difference
      HCPCS                                                         Impact of Correcting
               Reimbursement Reimbursement Between CMS  Between
       Code                                                          CMS’s Calculation
                  Amount        Amount       and OIG   CMS and OIG
                                                                     (Loss to Medicare)
     J2430                  $59.06                           $62.15                        -$3.09               -4.97%   -$1,633,151.52
     J9170                $297.58                          $298.75                         -$1.17               -0.39%   -$1,014,778.44
     J0696                    $6.57                            $6.76                       -$0.19               -2.81%    -$435,180.94
     J7517                    $2.51                            $2.52                       -$0.01               -0.40%    -$422,437.93
     J9350                $739.69                          $744.25                         -$4.56               -0.61%    -$280,996.32
     J7502                    $3.90                            $3.94                       -$0.04               -1.02%    -$257,177.92
     J7631                    $0.10                            $0.12                       -$0.02              -16.67%    -$173,850.20
     J0585                    $4.71                            $4.72                       -$0.01               -0.21%    -$126,373.93
     J9206                $125.58                          $125.64                         -$0.06               -0.05%     -$64,532.58
     J2405                    $3.73                            $3.74                       -$0.01               -0.27%     -$46,285.91
     J9310                $442.01                          $442.03                         -$0.02               0.00%      -$27,610.78
     J9209                  $16.69                           $16.90                        -$0.21               -1.24%     -$26,215.14
     J9208                  $62.04                           $62.91                        -$0.87               -1.38%     -$23,229.87
     J2788                  $24.47                           $24.97                        -$0.50               -2.00%     -$23,170.50
     J1450                  $44.85                           $49.11                        -$4.26               -8.67%     -$23,110.50
     J2780                    $0.93                            $1.00                       -$0.07               -7.00%     -$20,904.03
     J1650                    $5.15                            $5.19                       -$0.04               -0.77%     -$18,403.48
     J0702                    $4.51                            $4.52                       -$0.01               -0.22%       -$9,725.23
     J1750                  $11.06                           $11.07                        -$0.01               -0.09%       -$8,312.74
     J9040                  $55.01                           $55.67                        -$0.66               -1.19%       -$8,300.16
     J1440                $178.94                          $178.95                         -$0.01               -0.01%       -$6,536.72
     J9211                $317.27                          $322.72                         -$5.45               -1.69%       -$5,847.85
     J1630                    $2.56                            $3.07                       -$0.51              -16.61%       -$5,755.35
     J1110                  $28.75                           $29.88                        -$1.13               -3.78%       -$4,680.46
     J2001                    $0.01                            $0.02                       -$0.01              -50.00%       -$2,641.37
     J0780                    $3.01                            $3.20                       -$0.19               -5.94%       -$2,369.87
     J9340                  $43.57                           $43.79                        -$0.22               -0.50%       -$1,818.08
     J9293                $321.80                          $321.82                         -$0.02               -0.01%       -$1,694.00
     J3260                    $1.98                            $2.00                       -$0.02               -1.00%       -$1,234.42
     J1070                    $4.91                            $4.92                       -$0.01               -0.20%       -$1,123.93
     J7682                  $46.98                           $46.99                        -$0.01               -0.02%        -$906.43
     J2543                    $4.59                            $4.65                       -$0.06               -1.29%        -$881.22
     J7509                    $0.07                            $0.08                       -$0.01              -12.50%        -$874.54
     J1230                    $3.28                            $3.29                       -$0.01               -0.30%        -$344.39
     J1590                    $0.44                            $0.45                       -$0.01               -2.22%        -$254.53
     J1051                    $4.89                            $4.90                       -$0.01               -0.20%        -$221.16
     J2440                    $0.76                            $0.84                       -$0.08               -9.52%        -$178.56
     J1790                    $1.02                            $1.13                       -$0.11               -9.73%        -$171.71

OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                                     19
 A   P   P E N D       I X ~                  C


     Table 2: Codes for Which CMS’s Reimbursement Amount Was Less Than
     OIG’s Reimbursement Amount
                                                                    Estimated Monetary
                   CMS's         OIG's      Difference % Difference
      HCPCS                                                         Impact of Correcting
               Reimbursement Reimbursement Between CMS  Between
       Code                                                          CMS’s Calculation
                  Amount        Amount       and OIG   CMS and OIG
                                                                     (Loss to Medicare)
     90371                $113.57                          $113.94                         -$0.37               -0.32%         -$167.24
     J2370                    $0.63                            $0.75                       -$0.12              -16.00%         -$111.48
     J2185                    $3.40                            $3.41                       -$0.01               -0.29%         -$101.18
     J0715                    $2.70                            $2.73                       -$0.03               -1.10%          -$95.70
     J0725                    $2.58                            $2.59                       -$0.01               -0.39%          -$71.63
     J2320                    $3.41                            $3.43                       -$0.02               -0.58%          -$47.96
     J9098                $350.45                          $350.46                         -$0.01               0.00%           -$27.69
     J1800                    $5.10                            $5.11                       -$0.01               -0.20%          -$16.58
     J3305                $136.93                          $136.94                         -$0.01               -0.01%          -$10.44
     J1180                    $4.00                            $4.01                       -$0.01               -0.25%          -$10.21
     90376                  $66.31                           $66.36                        -$0.05               -0.08%           -$6.95
     J0720                    $6.10                            $6.11                       -$0.01               -0.16%           -$5.57
     90700                  $12.81                           $12.96                        -$0.15               -1.16%           -$2.40
     J2783                $107.01                          $107.02                         -$0.01               -0.01%           -$2.26
     Q2017                $263.67                          $265.15                         -$1.48               -0.56%           -$1.48
     J7110                  $10.71                           $10.72                        -$0.01               -0.09%           -$0.72
     90585                $122.54                          $122.55                         -$0.01               -0.01%           -$0.10
     Q2007                  $63.36                           $63.37                        -$0.01               -0.02%           -$0.02
     90396                $109.82                          $109.83                         -$0.01               -0.01%           -$0.01
     J0180                $121.12                          $121.14                         -$0.02               -0.02%           $0.00
     J7518                    $2.42                            $2.43                       -$0.01               -0.41%           $0.00
     Q0171                    $0.10                            $0.11                       -$0.01               -9.09%           $0.00
     Q0176                    $0.26                            $0.27                       -$0.01               -3.70%           $0.00
      Total                                                                                                              -$4,681,962.33




OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                                     20
Δ   A P P E N D I X                                  ~            D



     Table 3: Codes for Which CMS’s Reimbursement Amount and OIG’s Reimbursement
     Amount Were the Same

                                                     CMS's                              OIG's
                         HCPCS
                                                 Reimbursement                      Reimbursement
                          Code
                                                    Amount                             Amount

                  Q2014                                                $8.77                              $8.77
                  J2505                                         $2,273.93                          $2,273.93
                  J3487                                            $198.39                            $198.39
                  J9263                                                $8.24                              $8.24
                  J9201                                            $115.34                            $115.34
                  J7626                                                $4.03                              $4.03
                  J9219                                         $2,206.27                          $2,206.27
                  J7320                                            $200.15                            $200.15
                  J9355                                              $52.99                             $52.99
                  J1441                                            $282.41                            $282.41
                  Q0137                                                $3.54                              $3.54
                  J2792                                              $13.40                             $13.40
                  J7190                                                $0.52                              $0.52
                  J9395                                              $80.51                             $80.51
                  J9185                                            $272.09                            $272.09
                  J7520                                                $6.73                              $6.73
                  J1785                                                $3.91                              $3.91
                  Q4077                                              $54.02                             $54.02
                  J9031                                            $118.41                            $118.41
                  J0207                                            $417.56                            $417.56
                  J7515                                                $0.99                              $0.99
                  J7198                                                $1.09                              $1.09
                  J2324                                              $73.33                             $73.33
                  J7195                                                $0.84                              $0.84
                  J9010                                            $511.48                            $511.48
                  J7193                                                $0.75                              $0.75
                  J9015                                            $672.06                            $672.06
                  J9178                                              $25.41                             $25.41
                  J7050                                                $0.02                              $0.02
                  Q4054                                                $3.54                              $3.54
                  J9160                                         $1,205.53                          $1,205.53
                  J9291                                            $141.14                            $141.14
                  J0587                                                $7.76                              $7.76
                  Q2022                                                $0.72                              $0.72
                  J9268                                         $1,870.88                          $1,870.88
                  J9290                                              $65.91                             $65.91
                  J1756                                                $0.36                              $0.36
                  J7342                                              $15.32                             $15.32
                  J9096                                                $6.04                              $6.04
                  J7500                                                $0.19                              $0.19
                  J9300                                         $2,203.67                          $2,203.67

OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                  21
A   P     P E N D         I X ~          D



             Table 3: Codes for Which CMS’s Reimbursement Amount and OIG’s Reimbursement
             Amount Were the Same

                                                               CMS's                              OIG's
                                   HCPCS
                                                           Reimbursement                      Reimbursement
                                    Code
                                                              Amount                             Amount

                            J9093                                                $0.60                              $0.60
                            J2916                                                $4.83                              $4.83
                            J9065                                              $43.29                             $43.29
                            J7639                                              $16.93                             $16.93
                            J9095                                                $3.02                              $3.02
                            J3240                                            $699.60                            $699.60
                            J8521                                              $10.76                             $10.76
                            J0287                                              $11.94                             $11.94
                            J1020                                                $2.67                              $2.67
                            J7340                                              $26.51                             $26.51
                            J1335                                              $21.30                             $21.30
                            J0289                                              $20.38                             $20.38
                            J1212                                              $36.79                             $36.79
                            J9280                                              $23.38                             $23.38
                            J3130                                              $14.99                             $14.99
                            J9200                                              $71.39                             $71.39
                            J7308                                              $87.65                             $87.65
                            J1655                                                $2.60                              $2.60
                            J0205                                              $39.22                             $39.22
                            J0600                                              $39.74                             $39.74
                            J1670                                              $68.47                             $68.47
                            J0285                                              $29.84                             $29.84
                            J1570                                              $33.93                             $33.93
                            J9050                                            $139.10                            $139.10
                            J9097                                              $12.08                             $12.08
                            J9094                                                $1.21                              $1.21
                            J1410                                              $56.71                             $56.71
                            J9320                                            $153.82                            $153.82
                            J0550                                              $29.91                             $29.91
                            J0570                                              $30.41                             $30.41
                            J0740                                            $762.50                            $762.50
                            J0713                                                $3.74                              $3.74
                            J9600                                         $2,285.15                          $2,285.15
                            J7194                                                $0.49                              $0.49
                            J9245                                            $388.73                            $388.73
                            J0476                                              $67.55                             $67.55
                            90586                                            $118.41                            $118.41
                            J2920                                                $1.92                              $1.92
                            J1000                                                $5.02                              $5.02
                            90675                                            $115.02                            $115.02
                            Q4075                                                $0.03                              $0.03
                            J0850                                            $672.61                            $672.61


        OEI-03-05-00310     C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                            22
A   P     P E N D         I X ~          D



             Table 3: Codes for Which CMS’s Reimbursement Amount and OIG’s Reimbursement
             Amount Were the Same

                                                               CMS's                              OIG's
                                   HCPCS
                                                           Reimbursement                      Reimbursement
                                    Code
                                                              Amount                             Amount

                            J3120                                                $7.49                              $7.49
                            J0580                                              $60.28                             $60.28
                            J7513                                            $380.28                            $380.28
                            J3475                                                $0.01                              $0.01
                            J0530                                              $11.37                             $11.37
                            J3465                                                $4.55                              $4.55
                            J2760                                              $22.47                             $22.47
                            J2322                                              $13.86                             $13.86
                            Q0167                                                $4.00                              $4.00
                            J2545                                              $39.05                             $39.05
                            J2770                                            $103.25                            $103.25
                            J7511                                            $297.78                            $297.78
                            J9020                                              $54.52                             $54.52
                            J1438                                            $147.16                            $147.16
                            J0560                                              $17.29                             $17.29
                            J3415                                                $2.36                              $2.36
                            J2597                                                $2.47                              $2.47
                            J0770                                              $45.09                             $45.09
                            J0760                                                $4.07                              $4.07
                            J7525                                            $124.27                            $124.27
                            J3320                                              $28.65                             $28.65
                            Q0165                                                $0.04                              $0.04
                            J3250                                                $4.12                              $4.12
                            J9266                                         $1,459.51                          $1,459.51
                            J2321                                                $6.56                              $6.56
                            J9230                                              $10.45                             $10.45
                            J2501                                                $4.02                              $4.02
                            J0130                                            $431.24                            $431.24
                            J3100                                         $2,040.05                          $2,040.05
                            J1980                                                $4.71                              $4.71
                            J1652                                                $6.74                              $6.74
                            J1270                                                $2.80                              $2.80
                            J2730                                              $85.79                             $85.79
                            J1120                                              $12.70                             $12.70
                            J8520                                                $3.24                              $3.24
                            J9151                                              $55.99                             $55.99
                            J9120                                              $12.07                             $12.07
                            J7100                                              $14.05                             $14.05
                            J0630                                              $35.03                             $35.03
                            J0592                                                $0.82                              $0.82
                            J7501                                              $46.88                             $46.88
                            J1380                                              $11.36                             $11.36


        OEI-03-05-00310     C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                            23
A   P     P E N D         I X ~          D



             Table 3: Codes for Which CMS’s Reimbursement Amount and OIG’s Reimbursement
             Amount Were the Same

                                                               CMS's                              OIG's
                                   HCPCS
                                                           Reimbursement                      Reimbursement
                                    Code
                                                              Amount                             Amount

                            J2675                                                $1.93                              $1.93
                            J0636                                                $0.71                              $0.71
                            J7504                                            $283.59                            $283.59
                            J0210                                                $9.03                              $9.03
                            J7330                                       $16,284.90                         $16,284.90
                            J2690                                                $0.90                              $0.90
                            J0515                                                $3.40                              $3.40
                            J1835                                              $36.23                             $36.23
                            J7516                                              $20.59                             $20.59
                            J3364                                                $8.15                              $8.15
                            J3365                                            $407.54                            $407.54
                            J3486                                              $18.74                             $18.74
                            J3411                                                $0.58                              $0.58
                            J7310                                         $4,240.00                          $4,240.00
                            J0583                                                $0.15                              $0.15
                            J1742                                            $223.65                            $223.65
                            J1840                                                $0.23                              $0.23
                            J7505                                            $830.01                            $830.01
                            J2995                                              $76.32                             $76.32
                            J1240                                                $4.73                              $4.73
                            J1830                                              $80.53                             $80.53
                            J1364                                                $2.94                              $2.94
                            J2410                                                $2.29                              $2.29
                            J3485                                                $0.96                              $0.96
                            J1320                                                $1.79                              $1.79
                            J1730                                            $112.01                            $112.01
                            Q2012                                            $154.05                            $154.05
                            J8560                                              $31.03                             $31.03
                            J2210                                                $4.30                              $4.30
                            J2590                                                $1.04                              $1.04
                            J1595                                              $34.85                             $34.85
                            J0275                                              $20.75                             $20.75
                            Q2002                                                $2.98                              $2.98
                            Q0177                                                $0.07                              $0.07
                            J1205                                                $9.13                              $9.13
                            Q0170                                                $0.16                              $0.16
                            Q0169                                                $0.28                              $0.28
                            Q2021                                            $133.75                            $133.75
                            Q2006                                            $555.03                            $555.03
                            J2720                                                $0.36                              $0.36
                            Q0175                                                $0.21                              $0.21
                            90704                                              $17.81                             $17.81


        OEI-03-05-00310     C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                            24
A   P     P E N D         I X ~          D



             Table 3: Codes for Which CMS’s Reimbursement Amount and OIG’s Reimbursement
             Amount Were the Same

                                                               CMS's                              OIG's
                                   HCPCS
                                                           Reimbursement                      Reimbursement
                                    Code
                                                              Amount                             Amount

                            90706                                              $14.98                             $14.98
                            J0128                                              $68.62                             $68.62
                            J0135                                            $577.56                            $577.56
                            J0878                                                $0.28                              $0.28
                            J2357                                              $15.32                             $15.32
                            J2469                                              $18.22                             $18.22
                            J2794                                                $4.60                              $4.60
                            J3396                                                $8.99                              $8.99
                            J7611                                                $0.07                              $0.07
                            J7612                                                $0.87                              $0.87
                            J8501                                                $4.62                              $4.62
                            J8510                                                $1.91                              $1.91
                            J9041                                              $28.38                             $28.38
                            J9055                                              $49.64                             $49.64
                            J1457                                                $1.25                              $1.25
                            J1931                                              $22.74                             $22.74
                            J7674                                                $0.41                              $0.41
                            Q2003                                                $2.15                              $2.15
                            Q2008                                              $11.55                             $11.55




        OEI-03-05-00310     C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                            25
Δ      A P P E N D I X                                     ~           E            


       Comments from the Centers for Medicare & Medicaid Services




OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                               26
Δ   A C K N O W L E D G M E N T S                                                                              


                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector
                  General. Other principal Office of Evaluation and Inspections staff who
                  contributed include:

                  Lauren McNulty, Team Leader
                  Linda Boone Abbott, Program Specialist




OEI-03-05-00310   C A L C U L AT I O N   OF   V O L U M E - W E I G H T E D AV E R A G E S A L E S P R I C E
                                                                                                                   27
